REVIEW OF DCA POLICY FOR DETERMINING EXAMINATION
          FREQUENCY, SCOPE, AND PRIORITY



                 Audit Report No. 99-013
                     March 15, 1999




                OFFICE OF AUDITS

          OFFICE OF INSPECTOR GENERAL
                         TABLE OF CONTENTS


BACKGROUND                                                               2


OBJECTIVES, SCOPE, AND METHODOLOGY                                       2


RESULTS OF AUDIT                                                         3

DCA’S POLICY ON RISK MANAGEMENT PRIORITIES PLACES                        4
FDIC AT A GREATER RISK OF NOT DETECTING INSTANCES OF
NONCOMPLIANCE

Recommendations                                                          7

DCA’S CURRENT INTERNAL CONTROL RISK RANKING IS                           8
INCONSISTENT WITH ITS POLICY ON RISK MANAGEMENT
PRIORITIES

Recommendations                                                         10


CORPORATION COMMENTS AND OIG EVALUATION                                 10


APPENDIXES
     APPENDIX I: Division of Compliance and Consumer Affairs Response   13
     APPENDIX II: Management Decision Table                             16


TABLES
    TABLE 1: Violations Found In 40 Banks With Compliance Ratings
             Of “1” And “2”                                              6
    TABLE 2: Consumer Protection Laws And Regulations                   11
    TABLE 3: Common Compliance Violations For 1996 DCA
             Examinations                                               12
Federal Deposit Insurance Corporation                                                         Office of Audits
Washington, D.C. 20434                                                           Office of Inspector General




   DATE:                        March 15, 1999

   MEMORANDUM TO:               Ronald F. Bieker, Acting Director
                                Division of Compliance and Consumer Affairs


   FROM:                        David H. Loewenstein
                                Assistant Inspector General

   SUBJECT:                      Review of DCA Policy for Determining Examination Frequency,
                                 Scope, and Priority
                                (Audit Report No. 99-013)

   The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General has completed a
   review of the Division of Compliance and Consumer Affairs (DCA) policy for determining the
   frequency, scope, and priority of compliance and Community Reinvestment Act (CRA)
   examinations for FDIC-insured state nonmember institutions.

   On January 26, 1998, DCA issued a new policy entitled “Risk Management Priorities” that
   directly addressed the frequency, scope, and priority of examinations. DCA intended for this
   policy to improve risk management procedures for conducting examinations within DCA’s
   existing resources. The policy extends the full-scope examination frequencies for up to 5 years
   and requires examiners to evaluate compliance with certain laws and regulations using “aggressive
   scoping procedures” (eliminating or reducing the review for certain laws and regulations) “to the
   greatest extent possible” to save time during compliance examinations. This policy permits
   changes to DCA’s examination process that would make it different from the compliance
   programs at the other federal bank regulatory agencies. Moreover, we are concerned that the
   extended examination cycle and reduced testing of certain regulations could diminish FDIC’s
   ability to adequately enforce consumer protections under the law and may give banks and the
   public the perception that the FDIC has placed a lower priority on conducting these examinations.

   In addition, we are concerned that DCA has redefined its internal control risk assessment and
   lowered its risk ranking for its compliance reviews. In light of DCA’s 1998 policy to extend
   examination frequencies and to aggressively scope reviews of bank compliance with consumer
   protection laws and regulations, the internal control risk assessment should be re-examined.
BACKGROUND

The FDIC is legislatively authorized to enforce compliance with various laws and regulations
related to consumer protections and civil rights with respect to insured state-chartered
nonmember banks. Table 2 on page 11 contains a listing of the subject laws and regulations.
Insured state-chartered nonmember banks are banks that are insured by the FDIC, chartered by
the state in which they operate, and not members of the Federal Reserve System. In addition to
ensuring compliance with consumer protection laws and regulations, the FDIC is responsible for
monitoring the CRA activities of these non-member institutions. Enacted in 1977, the CRA was
intended to encourage federally-insured depository institutions to lend in low- and moderate-
income neighborhoods.

FDIC established DCA as a separate division in 1994 to conduct examinations to determine
compliance with consumer protection, civil rights, and fair housing laws and regulations.
Previously, the Division of Supervision conducted these reviews as part of the Division’s safety
and soundness examinations. Noncompliance with consumer protection laws may result in
corrective enforcement actions requiring payment of restitution or penalties, or reimbursement to
customers of improperly charged fees or interest. As required by the CRA, DCA also periodically
evaluates each institution’s record of helping to meet the credit needs of the bank’s entire
community. Noncompliance with CRA may result in adverse publicity that can impact negatively
on the bank’s ability to continue servicing existing relationships, and to establish new relationships
and services within the community.

There are no federally mandated examination frequency requirements for compliance or CRA
examinations. In May 1996, the FDIC Operating Committee agreed to a maximum 36-month
examination frequency schedule for FDIC-supervised financial institutions with composite ratings
of “1” or “2” for compliance and “Outstanding” or “Satisfactory” ratings for CRA. Previously,
these institutions were evaluated on a 24-month examination cycle. Institutions rated “3” for
compliance continued to have a 24-month examination cycle. The frequency schedule for
institutions with composite ratings of “4” or “5” for compliance, and “Needs to Improve” or
“Substantial Noncompliance” ratings for CRA remained at 12 months.


OBJECTIVES, SCOPE, AND METHODOLOGY

We reviewed the policy for determining examination frequency, scope, and priority in the DCA
Atlanta Regional Office. The initial objectives of the audit were to determine whether:
(1) examinations are conducted in compliance with FDIC policies and procedures related to the
frequency of examinations, (2) examinations are conducted in a manner that ensures the
consistency of the scope of the reviews, (3) and examination priorities are identified and
addressed in a timely manner. However, the scope of our audit changed during the field work
phase of our audit due to the January 1998 issuance of a new DCA policy entitled “Risk
Management Priorities” which directly addressed the frequency, scope, and priority of DCA
examinations. The purpose of the change in audit scope was to focus on the risks associated

                                                  2
with the new policy as it relates to extended examination frequencies and methods used to identify
compliance risk in FDIC-supervised institutions.

To accomplish the audit objectives, we reviewed compliance and CRA examinations conducted
from January 1997 through March 1998 on 40 banks ranging in size from $10 million to $1.6
billion. Our audit work included reviewing DCA policies and procedures, examination reports
and workpapers, examination statistics, and internal control management reports. In addition, we
discussed the process for determining examination frequencies,scoping requirements, and off-site
monitoring of institutions with various officials in DCA headquarters, officials and examiners in
the Atlanta Regional Office, and officials from the Federal Reserve Board (FRB), the Office of the
Comptroller of the Currency (OCC), and the Office of Thrift Supervision (OTS). We also met
with the Chairman of the Consumer Compliance Task Force for the Federal Financial Institutions
Examination Council (FFIEC).

Our fieldwork also included

       •   comparisons of examination frequencies and scopes under old and new DCA policies;

       •   reviews of Office of Internal Control Management guidance related to management
           control plans and internal control reviews;

       •   reviews of the DCA 1995 – 1998 management control plans;

       •   a review of the regulations related to the FFIEC and projects currently in process
           under the Consumer Compliance Task Force; and

       •   a comparison of DCA's compliance and CRA examination programs with the
           programs of the other federal bank regulatory agencies.

We obtained examination information from the Compliance Statistical System, DCA's automated
examination tracking system, but we did not independently test the system, since it was being
redesigned at the time of our review. The audit was conducted in accordance with generally
accepted government auditing standards. We conducted the audit fieldwork in DCA Washington
headquarters and the Atlanta Regional Office from January 9, 1998 though September 17, 1998.

RESULTS OF AUDIT

In January 1998, during the course of our audit, DCA revised its policy on examination
frequency, scope, and priority. The new policy, which allows for a period of up to five years
between full-scope examinations for an estimated 90 percent of FDIC-supervised banks, extends
the FDIC review cycle longer than that of any other federal financial regulatory agency. The
policy also directs examiners to use “aggressive scoping procedures” (eliminating or reducing the
review for certain laws and regulations), potentially omitting reviews of certain consumer
protection requirements. It is DCA’s opinion that aggressive scoping will reduce examination

                                                3
hours and improve efficiency. According to the DCA policy, eliminating the hours spent on low-
risk regulations will allow the DCA to focus resources and increase the pace of examinations.

In addition, in 1996 DCA redefined its internal control risk assessment related to meeting
examination frequency requirements and detecting noncompliance by banks, and in 1997 DCA
lowered the associated risk ranking from “Medium” to “Low.” However, in light of DCA’s 1998
policy to extend examination frequencies and to aggressively scope reviews of bank compliance
with consumer protection laws and regulations, the internal control risk assessment should be
reexamined.


DCA’S POLICY ON RISK MANAGEMENT PRIORITIES PLACES FDIC AT A
GREATER RISK OF NOT DETECTING INSTANCES OF NONCOMPLIANCE

From 1996 until early 1998, DCA operated under an FDIC policy requiring full-scope
compliance examinations to be performed at least once every three years of those banks for
which the FDIC is the primary federal regulator. This policy was consistent with the policies of
the other federal bank regulatory agencies. However, in January 1998, DCA issued Policy
Memorandum 6410.14, “Risk Management Priorities,” to improve risk management procedures
for conducting examinations within existing resources. Among other things, the new policy
provides:

         “Examinations of institutions rated any combination of “1” or “2” in Compliance and
         “Outstanding” or “Satisfactory” for CRA (regardless of size), may be deferred for up to
         two years (for a total of five years between examinations) if an on-site Interim Visitation is
         conducted within the three-year time frame.”1

The Risk Management Priorities policy goes on to state that the intent is to ensure an on-site
presence in all banks at least every three years. However, DCA staffing estimates and work load
assumptions for 1999 – 2003 (dated July and August 1998, respectively) estimate that there will
be a significant number of delinquent examinations, ranging from 699 in 1999 to 395 in 2001.
Further, according to the policy, DCA believes that compliance with the new policy may not be
achieved on a national basis until year-end 2000, and DCA estimates that 90 percent of FDIC-
insured banks will be eligible for the two year deferral for the full-scope examinations.

DCA issued the 1998 Risk Management Priorities policy as a temporary measure to address DCA
examination delinquencies. The policy specifically states:




1
  The Interim Visitation program is a narrowly scoped review with limited on-site work. If compliance problems are
detected during the Interim Visitation, a full-scope compliance examination can be started. The scope of the review
focuses on changes in a bank’s compliance operations; however, there is no requirement that loan files be sampled.
DCA will not assign ratings to a bank based on an Interim Visitation. DCA estimates that the Interim Visitation will
take 40 to 80 hours, depending on the size of the bank. In contrast, as of June 30, 1998, a full-scope examination of a
bank averaged 177 hours and resulted in a formal rating of bank compliance.
                                                          4
       “This policy is intended to ensure we have an on-site presence in all FDIC-supervised financial
       institutions at least every three years. Since there is currently a significant number of delinquent
       examinations, this policy is to be applied prospectively and compliance may not be entirely
       achieved on a national basis until year-end 2000.”

According to DCA officials and the Division of Administration Associate Director for
Management Review, there was no FDIC Board presentation and no formal Board vote to extend
examinations up to 5 years. However, DCA representatives briefed Board members individually
to explain the need for and the purpose of the policy to extend examination frequencies.
According to DCA officials, the policy was also presented to the FDIC Operating Committee as a
part of the DCA core staffing request.

This policy extends DCA’s examination frequency beyond that of any other federal bank
regulatory agency. While federal laws and regulations do not contain specific requirements for
compliance examination frequency, scope, or priority, the Congress did intend that there be some
degree of consistency among federal regulators in their compliance reviews. The FFIEC was
established by the Congress to promote improved and consistent examination and supervision
policies and procedures among the five financial institution regulatory agencies. We found that
other federal bank regulators continue to require compliance examinations at least once every
three years of all banks for which they are the primary federal regulator.

In addition to changing the frequency of full-scope reviews, the DCA policy lists nine consumer
protection laws and regulations that “should be evaluated using aggressive scoping procedures to
the greatest extent possible.” “Aggressive scoping procedures” allow examiners to completely
eliminate or significantly reduce efforts for certain laws and regulations when planning their
reviews, potentially omitting reviews of these consumer protection requirements. The nine laws
and regulations to be aggressively scoped are as follows:

       •   Consumer Leasing Act – FRB Reg M
       •   Interest on Deposits – FRB Regulation Q / 12 CFR Part 329
       •   Preservation of Consumer Claims and Defenses – FTC Rule Part 433
       •   Flood Disaster Protection Act
       •   Credit Practices Rule – FRB Regulation AA
       •   Right to Financial Privacy Act
       •   Expedited Funds Availability Act – FRB Reg CC
       •   Electronic Funds Transfer Act – FRB Reg E
       •   Truth In Savings Act – FRB Reg DD

The policy memorandum states that these laws and regulations

       “… are considered to pose the least amount of risk to the financial institution, the general
       public, and the FDIC. While reviewing for compliance with some of these regulations may not
       take much time, any time saved during the examination is a positive shift toward maximizing
       our efficiency. Eliminating the hours spent on many of the low-risk regulations

                                                        5
       normally reviewed during an examination will allow us to focus resources on the higher risk
       areas and should increase the pace of examinations.”

DCA management officials told us that they did not document the methodology for selecting
these nine laws and regulations.

We found information, some internal to DCA, that is not consistent with DCA’s study of
violations. An FDIC Financial Institution Letter (FIL) 87-97 entitled “Consumer Protection and
Fair Lending Compliance Violations Most Often Cited by FDIC Examiners in 1996” was issued
September 2, 1997, four months before the new policy was issued. In this FIL, DCA identified 10
consumer laws and regulations as the areas most often cited during the compliance examinations
of 2,031 institutions conducted in 1996 (see Table 3 on page 12). Four of these laws were
targeted for aggressive scoping by DCA in its January 1998 policy: the Electronic Funds Transfer
Act, the Expedited Funds Availability Act, the Flood Disaster Protection Act, and the Truth in
Savings Act.

Also, in the July/August 1998 issue of the American Banker Association (ABA) Bank Compliance
publication, the ABA presented compliance examination data from the FRB, the OCC, and the
FDIC and tracked the 11 most common violations found during their examinations. Again, four
of the nine laws and regulations targeted for aggressive scoping by DCA were identified as
commonly cited for violations: the Electronic Funds Transfer Act, the Expedited Funds
Availability Act, the Flood Disaster Protection Act, and the Truth in Savings Act.

In addition, we reviewed the number of violations cited in our sample of 40 banks that were
examined in the DCA Atlanta region from January 1997 through March 1998. We found that
even banks with composite compliance ratings of “1” and “2” had violations noted on seven of the
laws and regulations identified for aggressive scoping. Table 1 below summarizes the results of
our analysis.
                                      TABLE 1
        VIOLATIONS FOUND IN 40 BANKS WITH COMPLIANCE RATINGS OF “1” AND “2”

                                                                           # OF BANKS    % OF BANKS
  LAWS / REGULATIONS IDENTIFIED FOR AGGRESSIVE SCOPING                        WITH          WITH
                                                                           VIOLATIONS    VIOLATIONS
 Expedited Funds Availability Act – FRB Reg CC                                 21           52%
 Flood Disaster Protection Act                                                 19           47%
 Truth In Savings Act – FRB Reg DD                                             16           40%
 Interest on Deposits – FRB Regulation Q / 12 CFR Part 329                     11           27%
 Electronic Funds Transfer Act – FRB Reg E                                     10           25%
 Credit Practices Rule – FRB Regulation AA                                     3            7%
 Right to Financial Privacy Act                                                2            5%
 Preservation of Consumer Claims and Defenses – FTC Rule Part 433              0            0%
 Consumer Leasing Act – FRB Reg M                                              0            0%
Source: OIG Analysis of 40 DCA Compliance Examinations



                                                     6
We believe the longer examination frequency intervals, combined with decreased coverage of
certain consumer protections, may not ensure that compliance and CRA concerns will be
identified and addressed in a timely manner. Furthermore, by extending examination frequencies,
the DCA “Risk Management Priorities” policy may leave the FDIC open to adverse public
exposure by giving banks and the public the perception that the FDIC has placed a lower priority
on conducting compliance and CRA examinations as compared with other regulatory agencies.

Although DCA headquarters management told us that the 9 regulations to be aggressively scoped
had the fewest number of violations nationwide,we believe the results of our sample of 40 banks,
cited above, demonstrate a need to evaluate risk separately at each individual bank. Banks
nationwide operate in very different environments, serve different clients, and offer different
services. In our opinion, nationwide results of bank examinations should not be used to scope the
review of laws and regulations at each individual bank. In addition, the banking environment is
changing rapidly. Although some regulations, such as those related to financial privacy, may not
have had many violations reported in the past, we believe there could be more violations in the
future as electronic banking and commerce technology continues to develop. DCA needs to take
a more proactive approach in assessing risk by looking forward, not back, in time. We believe the
intent of a risk management approach to conducting compliance examinations should allow
examiners to evaluate the risk of individual banks and to focus their review and testing based on
specific bank risk assessment results.

Recommendations

To ensure that consumer protection laws and regulations are followed by banks and to confirm
the importance the FDIC places on consumer protection requirements, we recommend that the
Acting Director, DCA:

       (1) Conduct an overall risk assessment study, based on current data and evolving trends,
           to determine the appropriate review cycles and appropriate methods to use when
           scoping and conducting compliance and CRA examinations.

       (2) Initiate a dialogue with the other federal bank regulatory agencies (possibly through
           the FFIEC) to determine the adequacy of examination frequency requirements and
           consistent methods for meeting these requirements.

       (3) Revise Policy Memorandum 6410.14, Risk Management Priorities, by eliminating the
           direction for examiners to aggressively scope the nine cited consumer protection laws
           and regulations and instead directing examiners to conduct examinations focusing on
           individual bank risk assessments.



                                                  7
DCA'S CURRENT INTERNAL CONTROL RISK RANKING IS INCONSISTENT
WITH ITS POLICY ON RISK MANAGEMENT PRIORITIES

In 1996, DCA redefined its internal control risk assessment related to conducting compliance
examinations by combining the risk related to meeting examination frequency requirements with
the risk related to detecting noncompliance by banks. Prior to the change, both of these risks
were ranked as “Medium.” During 1997, DCA reduced its internal control risk ranking for
conducting compliance examinations from “Medium” to “Low.” However, in light of DCA’s
1998 policy to extend examination frequencies and to aggressively scope reviews of bank
compliance with consumer protection laws and regulations, the internal control risk assessment
should be reexamined.

The Chief Financial Officers Act (CFOA) of 1990 requires government corporations, including
the FDIC, to submit annual management reports to the Congress signed by the head of the
agency. In compliance with the CFOA, each FDIC division and office is responsible for:
establishing Accountability Units (AU) linked to business activities/functions, identifying risks,
establishing control objectives, and developing risk management control plans to evaluate internal
control standards. The Internal Control Review (ICR) is the evaluation and verification process
used to provide reasonable assurance that internal controls, as well as business and administrative
practices, are working as planned and that risks are effectively managed. Each division and office
performs ICRs specific to their organization (commonly referred to as Site Visitation Programs or
Program Compliance Reviews).

In its 1996 through 1998 Management Control Plans, DCA defined its first risk for the
Supervision and Regulations Branch as “Compliance examinations not performed in accordance
with established frequency schedules may increase the possibility of institutions not complying
with all applicable consumer protection and fair lending laws and regulations.” DCA’s
Management Control Plan for 1995 defined two separate risks for this are--one for the detection
of noncompliance in banks and one for its ability to meet examination frequency requirements. In
the 1995 Plan, DCA rated each risk separately and each of these risks was given a “Medium” risk
ranking. In 1996, DCA combined these two risk elements into one, as quoted above, and in 1997
DCA lowered the risk ranking for the combined risk area to a “Low” risk.

The Office of Internal Control Management (OICM) reviews all of the FDIC internal control
assessments. The OICM Interim Guidance on Internal Control Programs, dated January 1997,
directed that: the number of AUs identified by each division or office be reviewed and
streamlined, ultimately cutting down on the number that would have to be tracked; and AUs be
established at the highest level that would lend itself to efficient and effective internal control
review. The guidance further stated that while individual components of an AU may have varying
levels of associated risk, an overall risk ranking at the AU level should provide a meaningful
assessment of susceptibility of a program or function to the occurrence of waste, loss
unauthorized use or misappropriations.


                                                 8
According to DCA, the risk areas related to the detection of noncompliance in banks and the
DCA’s ability to meet examination frequency requirements were combined, in accordance with
the OICM guidance, because they were similar and closely aligned. It is OICM’s opinion that,
although it would appear a “High” risk ranking might be appropriate for the combined DCA risk
area, the area is being adequately monitored. According to OICM, a risk ranking of “High”
would require an annual review of the internal controls for the associated accountability unit.
Because DCA conducts several regional office reviews each year that include reviews of the
control points included in its Management Control Plan, OICM believes the requirement for
annual reviews is already satisfied, just as though DCA had assessed this as a “High” risk area.
According to DCA officials, regional and field office reviews are conducted on two year and three
year cycles, respectively, covering four of the eight DCA regional offices per year.

In light of DCA’s 1998 policy to extend examination frequencies and to aggressively scope
reviews of bank compliance with consumer protection laws and regulations, the internal control
risk assessment should be reexamined. By extending the examination cycle to as much as five
years, DCA’s January 1998 policy memorandum actually may increase the risk of not detecting
noncompliance. Because the risk ranking dictates the frequency with which controls must be
assessed by the divisions and offices, lowering the risk ranking over controls to detect
noncompliance could result in less scrutiny of the area should DCA decide not to continue with its
annual regional office reviews.

In addition, we believe the actual “risk” for DCA is, as stated in its 1995 Management Control
Plan, the risk of not detecting noncompliance with applicable consumer protection and fair lending
laws and regulations. We also believe that the risk of not detecting noncompliance in a timely
manner is currently higher for the following reasons:

   •   DCA has permitted the compliance examination cycle to be extended as much as five years
       between full-scope examinations, longer than that of any other federal bank regulatory
       agency.

   •   When full-scope examinations are conducted, DCA procedures require examiners, at a
       minimum, to review a sample of transactions dating back six months to 2 years; leaving 3
       years of transactions out of the universe for testing. Therefore, under the revised policy, if
       an examination is deferred for up to five years between examinations, transactions
       occurring in the first three years of this period may never be reviewed.

   •   Supervisors do not regularly review the examination working papers that support
       examination conclusions. According to DCA, the only regular oversight is performed
       during the regional office reviews and field office reviews conducted by DCA staff on
       two-year and three-year cycles, respectively.


                                                     9
Recommendations

To more accurately reflect the effect of extending the frequency requirements for full-scope
compliance examinations, we recommend that the Acting Director, DCA:

       (4) Revise the DCA Management Control Plan to separately identify and evaluate the risk
           of: (a) not detecting instances of noncompliance in banks, and (b) not meeting the
           examination frequency requirements established in DCA policy.

       (5) Re-evaluate the risk areas defined in recommendation 4, and assign higher risk
           rankings to more accurately reflect the lengthening of review cycles, staff shortages,
           lack of supervisory reviews of examination workpapers, or any future changes made to
           the frequency, scope, or priority of compliance examinations.


CORPORATION COMMENTS AND OIG EVALUATION

On March 2, 1999, the Acting Director of DCA provided a written response to the draft report.
This response is presented in Appendix I of this report.

In response to recommendations 1, 2, and 3, the Acting Director, DCA, stated that DCA Policy
Memorandum 6410.14, entitled “Risk Management Priorities,” will be superceded, and
compliance examiners will be required to follow the existing guidelines contained in the DCA
Compliance Examination Manual. The policy was issued as a temporary measure intended to
provide regions with a discretionary tool (i.e., Interim Visitation) that could assist them in
complying with the FDIC’s January 1998 goal of having an on-site presence in all institutions over
the subsequent 3-year period. The temporary policy has been used only sparingly by the regions,
and no more than five Interim Visitations were performed in 1998.

The Acting Director also agreed with recommendation 4, and DCA will separately identify and
evaluate the risk areas related to the detection of noncompliance in banks and DCA's ability to
meet examination frequency requirements. For recommendation 5, the Acting Director stated
that DCA management determined that the risk assessment for the Supervision and Regulation
Accountability Unit, which was completed and issued in February 1998, resulted in a low risk
ranking. DCA management reaffirmed the risk ranking level of the Accountability Unit in the
Management Control Plan submitted to OICM on February 16, 1999, and will re-evaluate the risk
ranking level in the fourth quarter 1999 for the year 2000 Management Control Plan submission.

These actions adequately address our audit concerns. In addition, the Corporation’s response to
the draft report provided the elements necessary for management decisions on the report’s
recommendations. Appendix II presents management’s proposed actions on our
recommendations and shows that there is a management decision for each recommendation in this
report.

                                                10
                           TABLE 2


CONSUMER PROTECTION LAWS AND REGULATIONS




       Advertisement of FDIC Membership – FDIC Part 328
                   Community Reinvestment Act
                      Consumer Leasing Act
            Credit Practices Rule – FRB Regulation AA
                   Electronic Funds Transfer Act
                   Equal Credit Opportunity Act
                 Expedited Funds Availability Act
                     Fair Credit Reporting Act
                 Fair Debt Collection Practices Act
                         Fair Housing Act
                   Flood Disaster Protection Act
                  Home Mortgage Disclosure Act
             Interest on Deposits – FRB Regulation Q
 Preservation of Consumer Claims and Defenses – FTC Rule Part 433
              Real Estate Settlement Procedures Act
                   Right to Financial Privacy Act
                       Truth in Lending Act
                       Truth in Savings Act




Source: DCA Compliance Examination Manual, dated May 1998

                               11
                                          TABLE 3


      COMMON COMPLIANCE VIOLATIONS FOR 1996 DCA EXAMINATIONS


                                           # OF BANKS WITH             % OF BANKS WITH
LAWS/ REGULATIONS
                                            VIOLATIONS (*)               VIOLATIONS
Truth in Lending Act                              1547                        76
Real Estate Settlement Procedures Act             1528                        75
Equal Credit Opportunity Act                      1238                        61
Fair Housing Act                                  1237                        61
Truth in Savings Act                              1036                        51
Flood Disaster Protection Act                     953                         47
Expedited Funds Availability Act                  919                         45
Home Mortgage Disclosure Act                      662                         33
Fair Credit Reporting Act                         509                         25
Electronic Funds Transfer Act                     444                         22


(*) Total number of banks examined = 2,031

Source: FDIC Financial Institution Letter #87-97, entitled Consumer Protection and Fair
Lending Compliance Violations Most Often Cited by FDIC Examiners in 1996, dated
September 2, 1997.




                                              12
      DIVISION OF COMPLIANCE AND CONSUMER AFFAIRS RESPONSE APPENDIX I

    FDIC
    Federal Deposit Insurance Corporation
    Washington, DC 20429                              Division of Compliance and Consumer Affairs

                                                       March 2, 1999
MEMORANDUM TO:                        David H. Loewenstein
                                      Assistant Inspector General




FROM:                                 Ronald F. Bieker
                                      Acting Director
                                      Division of Compliance and Consumer Affairs
SUBJECT:                              Response to Draft Report Entitled
                                      Review of DCA Policy for Determining Examination
                                      Frequency, Scope, and Priority
As requested, this memorandum presents the Division of Compliance and Consumer Affairs
comments and recommendations with regard to the above referenced draft report in both hard
copy and electronic format.
Recommendation 1, 2, and 3 in the OIG draft report focuses on the release and
implementation of DCA's January 1998 Policy Memorandum 6410.14, "Risk Management
Priorities.
DCA issued the 1998 "Risk Management Priorities" policy to improve risk management
procedures for conducting examinations within existing resources. The intent of the policy was to
ensure that DCA had an on site presence in all FDIC-supervised financial institutions at least
every three years.

The OIG draft report states that by extending the examination frequencies, the DCA "Risk
Management Priorities " policy may not ensure that compliance and CRA concerns are identified
and addressed in a timely manner. Also, the policy may leave the FDIC open to adverse public
exposure by giving banks and the public the perception that the FDIC has placed a lower priority
on conducting compliance and CRA examinations as compared to the other regulatory agencies.
Furthermore, the OIG states that DCA should conduct its compliance and CRA examinations by
evaluating institutional risk on a case-by-case basis.

DCA would like to point out that the "Risk Management Priorities" policy was issued as a
temporary measure intended to provide regions with a discretionary tool (i.e., Interim Visitation)
that could assist them in complying with the FDIC’s January 1998 goal of having an on-site
presence in all institutions over the subsequent three-year period. Although temporary
adjustments to the frequency schedule have been made to help regions manage a large volume of
delinquent exams, the official schedule remained in effect for 1998 and will continue to be the
standard by which examinations are scheduled and delinquencies are determined.
                                                  13
DCA's Response to OIG Draft Report
Review of DCA Policy for Determining Examination
Frequency, Scope, and Priority
Page 2 of 3
In fact, the temporary policy has been used only sparingly by the regions and has had no
significant impact on overall compliance with the division’s official examination frequency
schedule (1-year, 2-year, or 3-year cycle depending on asset size and rating). No more than five
Interim Visitations were performed in 1998 and as of January 15, 1999, only one bank (pending
merger) among 5,947 was more than two years delinquent, based on the official schedule.
As reported in the 1998 year-end Annual Performance Plan, DCA started 1,989 examinations as
compared to the original projection of 1,610 examinations in the 1998 Core Staffing submission,
completed in the fourth quarter 1997. In 1999, DCA projects starting 2,315 examination. The
number of these examination starts not only results in DCA adhering to its official examination
frequency schedule, but also indicates that DCA will significantly reduce the number of
examination delinquencies.
DCA has compared its exam frequency schedule with the OTS, FRB, and OCC and determined
that the official examination schedule is fully consistent with the other supervisory agencies.
FDIC has and will continue to maintain an in-depth dialogue with other federal agencies. In fact,
DCA currently chairs the FFIEC Consumer Compliance Task Force Examination Subcommittee,
which specifically addresses, consistency of all examination-related activity among the supervisory
agencies, including examination frequency requirements and the application of a consistent
methodology.
Finally, DCA fully agrees with the OIG regarding the appropriateness of evaluating institutional
risk on a case-by-case basis and is committed to managing the compliance examination program in
accordance with that philosophy. In fact DCA's compliance examination policies and procedures
manual clearly states that the examiner should conduct the appropriate risk evaluation on each
examination.
To ensure that DCA remains focused on adhering to the official examination frequency schedule
as well as applying the appropriate risk management procedures as presented in the Compliance
Manual, DCA will issue a Memorandum to all staff superceding the January 1998 Policy
Memorandum 6410.14, "Risk Management Priorities".
DCA anticipates completing this action, and providing a copy of the Memorandum to the OIG no
later than March 31, 1999.
 Recommendation 4 of the draft audit report suggest that DCA's Management Control
Plan separately identify and evaluate the risk of: (a) not detecting instances of
noncompliance in banks, and (b) not meeting the examination frequency requirements
established in the DCA policy.
As presented in the OIG report, in 1997 DCA combined the risk areas related to the detection of
noncompliance in banks and DCA's ability to meet examination frequency requirements because
they were so closely aligned. This was a management decision to streamline the risk reporting in
                                              14
DCA's Response to OIG Draft Report
Review of DCA Policy for Determining Examination
Frequency, Scope, and Priority
Page 3 of 3

the MCP as requested by the OICM. Although the risks were combined, the testing associated
with those separate risks was maintained in both the Regional and Field Office ICRs.

DCA has no problem with separating out the currently combined risks. We will submit the
change to OICM for consideration.

DCA anticipates completing this action and providing a copy of the Management Control Plan to
the OIG no later than March 31, 1999.


Recommendation 5 of the draft report suggest that DCA reevaluate the Supervision and
Regulation Accountability Unit risk ranking to more accurately reflect the lengthening of
the review cycles or any other future changes made to the frequency, scope, or priority of
compliance examinations.

DCA management determined that the Supervision and Regulation Accountability Unit, which
was completed and issued in February 1998, would have a low risk ranking. DCA management
reaffirmed the risk ranking level of the Accountability Unit in the Management Control Plan
submitted to OICM on February 16, 1999.

As discussed under our response to recommendation 1, 2, and 3, DCA has not incurred an
additional lengthening of examinations. In fact, DCA has maintained the official examination
frequency schedule and continues to reduce the number of delinquencies. Also, the FDIC
supervised financial institutions were, and remain today, very healthy. Not only were the financial
institutions very strong, but they were very much in compliance with Consumer Protection and
CRA Laws and Regulations. The percentage of FDIC supervised institutions with Compliance
and a CRA examination rating of 1 or 2 was 95% and 99%, respectively.

In conjunction with separating out the risks identified in recommendation 4 noted above, DCA
will evaluate the risk ranking level in the fourth quarter 1999 for the year 2000 Management
Control Plan submission. Upon completion and OICM approval, we will provide a copy of the
Management Control Plan to the OIG.


If you have any questions please, contact Melissa D'Onofrio, Associate Director for Operations at
202-942-3223.




                                                15
                                                                                                                                                 APPENDIX II
                                                 MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report the status of management decisions on its recommendations in its semiannual reports to
the Congress. To consider FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are necessary. First, the
response must describe for each recommendation

    §   the specific corrective actions already taken, if applicable;
    §   corrective actions to be taken together with the expected completion dates for their implementation; and
    §   documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any disagreement.
 In the case of questioned costs, the amount FDIC plans to disallow must be included in management’s response.

If management does not agree that a recommendation should be implemented, it must describe why the recommendation is not considered valid.
Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming
completion of corrective actions are responsive to its recommendations.

This table presents the management responses that have been made on recommendations in our report and the status of management decisions. The information for
management decisions is based on management’s written response to our report.




                                                                                 16
                                                                                                       Documentation That                       Management
 Rec.                                                                             Expected                                          Monetary
                  Corrective Action: Taken or Planned/Status                                           Will Confirm Final                      Decision: Yes or
Number                                                                          Completion Date                                     Benefits
                                                                                                             Action                                   No


         DCA will supercede Policy Memorandum 6410.14,                                               Copy of the memorandum
         entitled “Risk Management Priorities,” and require                                          to all staff superceding the
                                                                                                     January 1998 Policy
  1      compliance examiners to follow the existing                             March 31, 1999                                       NA            YES
                                                                                                     Memorandum 6410.14,
         guidelines contained in the DCA Compliance                                                  "Risk Management
                                                                                                     Priorities.”
         Examination Manual.
                                                                                                     Copy of the memorandum
         DCA will supercede Policy Memorandum 6410.14, entitled “Risk                                to all staff superceding the
         Management Priorities,” and require compliance examiners to                                 January 1998 Policy                            YES
  2                                                                              March 31, 1999                                       NA
         follow the existing guidelines contained in the DCA Compliance                              Memorandum 6410.14,
         Examination Manual.                                                                         "Risk Management
                                                                                                     Priorities.”
                                                                                                     Copy of the memorandum
         DCA will supercede Policy Memorandum 6410.14, entitled “Risk                                to all staff superceding the
         Management Priorities,” and require compliance examiners to                                 January 1998 Policy
  3                                                                              March 31, 1999                                       NA            YES
         follow the existing guidelines contained in the DCA Compliance                              Memorandum 6410.14,
         Examination Manual.                                                                         "Risk Management
                                                                                                     Priorities.”
                                                                                                     Copy of the revised 1999
         DCA will separately identify and evaluate the risk areas related to                         DCA Management Control
  4      the detection of noncompliance in banks and DCA's ability to            March 31, 1999      Plan submitted to Office of      NA            YES
         meet examination frequency requirements.                                                    Internal Control
                                                                                                     Management.


         DCA will re-evaluate the risk ranking level for the
                                                                                                     Copy of the DCA Year
  5      DCA supervision and regulation accountability unit                    Fourth Quarter 1999   2000 Management Control          NA            YES
         in the fourth quarter 1999 for the year 2000                                                Plan.
         Management Control Plan submission.




                                                                                       17
